CASE NO. 21-5048 (CAPITAL CASE)
IN THE SUPREME COURT OF THE UNITED STATES
____________________________________________________________
WESLEY RUIZ,
Petitioner,
v.
BOBBY LUMPKIN, DIRECTOR,
Respondent.
____________________________________________________________
On Petition for a Writ of Certiorari to
The United States Court of Appeals for the Fifth Circuit
________________________________________________________________
REPLY IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI
________________________________________________________________
Stuart Brian Lev*
Sonali Shahi
Andrew Childers
Assistant Federal Defenders
Federal Community Defender Office
for the Eastern District of Pennsylvania
601 Walnut Street, Suite 545 West
Philadelphia, PA 19106
(215) 928-0520
*Counsel of Record

Member of the Bar of the Supreme Court

THE DIRCTOR’S ARGUMENTS PRESENT NO BARRIER TO THE GRANT OF
CERTIORARI
The Director acknowledges that the expert witness the prosecution called at
the punishment phase of the trial provided false information about the treatment of
life-sentenced prisoners under the Texas prison classification system. BIO at 16-17.
The Director further concedes that the State made no effort to inform the state
court of the error or to seek to correct the false testimony, either at trial or in
appellate and state post-conviction proceedings. Id. This injection of false evidence
into the jury’s sentencing decision should, by itself, be sufficient to show that
Petitioner’s claims under Brady v. Maryland, 373 U.S. 83, 87 (1963), and Napue v.

Illinois, 360 U.S. 264, 269 (1959), have some merit and thus satisfy the standard for
issuing a certificate of appealability (COA).
The Director tries to avoid this conclusion by shifting the blame for the
prosecution’s error to the defense, emphasizing Petitioner’s state court default of his
claim. See, e.g., BIO at 14-16. The Director errs, however, by failing to recognize
that the prosecution’s suppression of the actual classification rules in effect at the
time of the trial can demonstrate both cause and prejudice for Petitioner’s default.

See Strickler v. Greene, 527 U.S. 263, 281-82 (1999) (demonstration of cause is
shown by establishing Brady’s suppression prong, and prejudice is shown by
establishing materiality).
The fact that Petitioner defaulted his claim in state court does not lessen the
habeas court’s duty to address the merits to determine if there is cause and
prejudice. And the merits of the claims are debatable because there is factual
1

support in the record that false evidence was placed before the jury. This Court
should review, and reverse, the Fifth Circuit’s denial of a COA.
The bulk of the BIO argues that Petitioner’s claim will ultimately fail. But
these arguments miss the point at this stage of the case. The question the Fifth
Circuit should have addressed is whether Petitioner’s cause and prejudice
arguments were debatable among reasonable jurists, not whether they would
ultimately succeed. The Fifth Circuit sought to sidestep the COA’s threshold
determination in favor of two footnotes summarily determining that Petitioner’s
claims lack merit. Ruiz v. Davis, 819 Fed App’x 238, 243 n.4&5 (5th Cir. 2020).
Yet, as this Court has repeatedly reminded the Fifth Circuit, the COA standard
cannot be so easily bypassed. Petition at 17-18 (citing relevant cases).
In any event, analysis of the Director’s arguments show that they are subject
to reasonable debate. For example, the Fifth Circuit held that “[w]hen evidence is
equally available to both the prosecution and defense, the defendant bears the
responsibility of any failure to diligently investigate it.” Ruiz v. Davis, 819 Fed.
App’x at 243 n.4. The Director relies upon this reasoning to argue that, after the
Texas Court of Criminal Appeals’ opinion in Estrada v. State, 313 S.W.3d 274, 287
(Tex. Crim. App. 2010), was published, the State had no duty to inform or correct
the false testimony because that information was equally available to the defense.
BIO at 16, 21.
But whether the availability of previously suppressed evidence relieves the
prosecution of its duty to disclose and correct is the subject of significant debate
2

among the Circuits. See Dennis v. Sec’y, Pa. Dep’t of Corr., 834 F.3d 263, 288-91
(3rd Cir. 2016) (noting this Court “has rejected the notion that defense counsel’s
diligence is relevant in assessing ‘cause’ for the failure to raise a Brady suppression
issue in state court proceedings”); Benson v. Chappell, 958 F.3d 801, 837 n.28 (6th
Cir. 2008) (“Moreover, while the information was contained in a public record, we
have held that under some circumstances, this does not diminish the state’s
obligation to produce documents under Brady”); Amado v. Gonzalez, 758 F.3d 1119,
1137 (9th Cir. 2014) (finding “due diligence” requirement was contrary to clearly
established federal law). As Petitioner has argued, Petition at 15, this case is an
appropriate vehicle for this Court to resolve that conflict. At a minimum, however,
the existence of a circuit split shows that the arguments are debatable, and that
further development of the issues should be encouraged. The grant of a COA would
allow the Fifth Circuit to confront its disagreements with its sister circuits head on,
rather than pretend that those disagreements do not exist.
The Director’s reliance on District Attorney’s Office for the Third Judicial

District v. Osborne, 557 U.S. 52 (2009), BIO at 22-23, is misplaced, as it is at least
debatable whether Osborne applies here. Ruiz seeks relief through the established
post-conviction process asserting that the prosecution failed to disclose favorable
evidence in existence at the time of trial. The prosecution then compounded that
error by failing to correct false testimony. In Osborne, by contrast, a defendant
sought to bypass the post-conviction process and use 42 U.S.C. §1983 to obtain
access to evidence in order to conduct new DNA testing. The petition in Osborne
3

specifically denied, and this Court agreed, that the Brady line of cases was not
applicable to his request. 557 U.S. at 68. Mr. Ruiz’s claims differ, as they fit within
the Brady/Napue paradigm. See Whitlock v. Brueggemann, 682 F.3d 567, 587-88
(7th Cir. 2012) (“Brady continues to apply to an assertion that one did not receive a
fair trial because of the concealment of exculpatory evidence known and in existence
at the time of that trial”).
The Director presumes, and asserts as a fact, that the trial prosecutors did
not know that Merillat’s testimony was false and thus had no duty to correct it.
BIO at 26. This reasoning is flawed for at least two reasons. First, there has never
been any factfinding about the extent of the trial prosecutor’s knowledge or when
the State learned that the testimony it presented as true was actually false. No
evidentiary hearing has ever been held and the denial of a COA limited the Fifth
Circuit’s consideration of whether a hearing was appropriate.
It is undisputed that information about the classification was readily
available to the State well before Estrada was decided. The State admits that as
early as 2009, it notified defense counsel in two capital cases of the classification
change. ROA 80-81 (Motion for New Trial, State v. Mark Robertson, No. AP-71, 224
(Aug. 28, 2009)). The only explanation the State now offers, that “the information
started to come to light around the same time—when the CCA was considering

Estrada,” is incorrect, as the notifications were made nearly one year before
Estrada was published. BIO at 26. The State has no explanation for why its office
did not similarly notify Ruiz in 2009, which prevented him from timely raising the
4

Brady-related claims on direct appeal. The State’s awareness of the falsity of
Merillat’s testimony prior to Estrada is at least debatable among jurists of reason.
Second, the Director’s focus on the prosecutor’s actual knowledge misses the
important legal question. Constitutional error occurs when the prosecution fails to
disclose favorable evidence, or fails to correct false testimony, that it “should have
known” was false. United States v. Agurs, 427 U.S. 97, 103 (1976). Here, by
deciding to present evidence about the classification of a life-sentenced prisoner, the
prosecution has a duty to ensure that such testimony is at a minimum, arguably
true. It is at least debatable that the prosecutors should have been aware of the
current classifications and should have known that Merillat’s testimony was false.

See Velez v. State, No. AP-76,051, 2012 2130890, at *32 (Tex. Crim. App. 2012)
(“Both Merillat and the State knew or should have known . . . that Merillat’s
testimony about the G classification of inmates who were sentenced to life without
parole was false.”). A party who presents expert testimony should not be allowed to
hide in ignorance when the expert provides testimony that is unquestionably, and
beyond dispute, false. Again, these issues are worthy of full appellate consideration
and review.
The Director’s reliance on Estrada v. Healey, 647 F. App’x 335, 338 (5th Cir.
2016), BIO at 21, is likewise debatable. In Estrada, which the State cites for the
same proposition as Osborne, the prosecutor’s office actually notified the defense of
a decision by the Texas Court of Criminal Appeals within eight days of its
publication, notwithstanding that defendant’s prosecution occurred five years
5

earlier. Id. at 337. The defense filed a petition for habeas relief within the year, the
prosecutor’s office indicated it would not oppose relief, and the CCA granted habeas
relief and overturned his conviction. Id. at 338. Here, by contrast, the prosecution
did not notify the defense of the Estrada decision and did not give the defense the
opportunity to timely raise a claim based on that new decision.
The Director emphasizes that “Estrada was a published opinion,” consistent
with the Fifth Circuit’s reasoning for denying COA, but cites to no relevant
precedent holding that state habeas counsel should have known about the decision
published months before the filing. BIO at 21. Under Strickler, 527 U.S. at 283,
and Thompson v. Davis, 916 F.3d 444, 457 (5th Cir. 2019), it is at least debatable
that the publication of an opinion does not excuse the State’s concealment of
evidence. In Strickler, where newspapers had published a trial witness’s conflicting
accounts, this Court rejected the argument that state habeas counsel should have
known of the existence of undisclosed interviews by the police, and found that cause
was adequately shown. 527 U.S. at 283. See also Banks v. Dretke, 540 U.S. 668, 695
(2004) (rejecting argument that state habeas counsel’s alleged lack of diligence
undermined finding of cause). In Thompson v. Davis, 916 F.3d 444, 457 (5th Cir.
2019), the Fifth Circuit granted a COA on a Brady claim where the issue of cause
was a “close” question, and found it debatable that the default resulted from the
State’s concealment of a contract with a witness, despite ample evidence that was
publicly available. State habeas counsel knew from the trial record that the witness
was an informant, and moreover, “[a]spects of Rhodes’s history with the State were
6

discoverable in public records, specifically the Texas Court of Appeals’ published
decision in Stephens v. State,” and the published opinion in Stephens “describes
Rhodes as an employee of the Organized Crime Task Force and ‘confidential
informant in over 50 cases.’” Id. at 456. Regardless, cause was nonetheless
debatable for purposes of a COA. Id. at 457. The same should have been true here.
The applicability of other cases cited by the Director is similarly debatable.

Smith v. Quarterman, 515 F.3d 392, 403 (5th Cir. 2008), BIO at 23, did not concern
a Brady claim, but an ineffective-assistance-of-counsel claim. In Kutzner,
“essentially all of the ‘suppressed’ evidence was discussed at trial” so the petitioner’s
failure to discover it at least by the time of trial was patently inexcusable. Kutzner

v. Cockrell, 303 F.3d 333, 336 (5th Cir. 2002). In United States v. Runyan, 290 F.3d
223, 245-46 (5th Cir. 2002), the computer sought by the defense was initially in
their possession for four months, and the Government represented that it was
available for inspection to the defense at the time of trial. Here, there is no
suggestion that the 2005 classification change was provided to Ruiz at the time of
trial, nor that he could have learned about the 2005 classification change from trial
testimony.
Finally, the Director tries to avoid responsibility for the prosecution’s
presentation of false testimony by disputing its materiality. The Director is wrong,
but once again, at minimum his assertions are subject to reasonable debate.
The materiality analysis for a Brady claim “is not a sufficiency of the
evidence test.” Kyles v. Whitley, 514 U.S. 419, 434 (1995). In Estrada, the Texas
7

court recognized that the evidence of future dangerousness was easily sufficient to
support the jury’s finding given the brutality of the murders—the defendant was a
youth pastor who preyed on underage girls in his youth group including the victim,
whom he stabbed 13 times when she was pregnant and killed their unborn child.
The classification change nonetheless was material because there was a “fair
probability” that the “death sentence was based upon Merillat’s incorrect testimony
as evidenced by the jury’s notes.” Id. at 287. Here, the State urges that “there was
no confusion” by the jury regarding Merillat’s incorrect testimony, simply because
he “accurately and consistently conveyed that the initial classification would be G3,” and because the jury asked no further questions. BIO at 38. However, the Ruiz
jury did inquire about the classification system and the prosecutor called the jury’s
attention to Merillat’s testimony in his closing argument. Petition at 4. The jury’s
question shows they were concerned about Ruiz’s classification when they were
deciding whether to sentence him to death or life without parole. Because the
question was unanswered by the court, it was clear that further questions would be
futile.
At the end of the day, this case presents important constitutional questions
concerning the introduction of false expert testimony at a capital sentencing trial.
Should the prosecution be held responsible for its presentation of the false expert
testimony? Does the failure to disclose the evidence demonstrating that falsity, and
failure to correct the testimony it knew or should have known was false constitute
cause and prejudice to overcome defense counsel’s failure to properly object and
8

raise these claims in state court? Should the prosecutor be able to shift blame to
the defense for the State’s presentation of false expert testimony?
This Court should address these questions because they impact the reliability
of a jury’s determination of life or death. These errors damage the public’s
perception of the integrity of the criminal justice system – if the prosecution is
allowed to introduce false testimony, how can the public feel confident in the
fairness and correctness of the result? This Court should affirm that our system of
justice, particularly in a matter as important as the death penalty, must be based
on truth.
At a minimum, this Court should not allow the Courts of Appeals, and the
Fifth Circuit in particular, to improperly truncate the appellate process in capital
cases. The Fifth Circuit below paid lip service to the minimal standards required
for a COA, but then, in summary fashion, determined the ultimate merit of the
claims. Mr. Ruiz raised questions of substantial merit and importance, which were
grounded in the record and, as shown here and in his Petition, are subject to debate
by reasonable jurists. The Fifth Circuit must be reminded once again of its duty to
properly administer and fulfill its appellate responsibility to prisoners sentenced to
die. It is only when those standards are faithfully applied that there can be
confidence in the result.

9

CONCLUSION
For these reasons, this Court should grant this petition for a writ of certiorari
and place this case on its merits docket. In the alternative, this Court should grant
certiorari, vacate the decision below, and remand this case to the Fifth Circuit with
instructions to grant a Certificate of Appealability.

Respectfully submitted,

/s/ Stuart Brian Lev_________
Stuart Brian Lev*
Sonali Shahi
Andrew Childers
Assistant Federal Defenders
Federal Community Defender Office
for the Eastern District of Pennsylvania
601 Walnut Street, Suite 545 West
Philadelphia, PA 19106
(215) 928-0520

Counsel for Petitioner Wesley Ruiz
*Counsel of Record

Member of the Bar of the Supreme Court

Dated: September 20, 2021

10

CERTIFICATE OF SERVICE
Pursuant to Rule 29.5(b) of the Rules of this Court, I, Stuart Brian Lev, a
member of the Bar of the United States Supreme Court, hereby affirm under
penalty of perjury that on this twentieth day of September, 2021, I placed one copy
of the Reply in Support of Petition for Writ of Certiorari in the above-captioned
case, to counsel for Respondents, Tomee M. Heining, Assistant Attorney General,
PO Box 12548, Capital Station, Austin TX 78711. The mailing was by first class
United States Mail postage prepaid.

/s/ Stuart Brian Lev
STUART BRIAN LEV*
Assistant Federal Defender
Federal Community Defender Office
for the Eastern District of Pennsylvania
The Curtis Center – Suite 545 West
Independence Square West
Philadelphia, PA 19106
(215) 928-0520
stuart_lev@fd.org
*Counsel for Petitioner, Wesley Ruiz
Dated: September 20, 2021

